<html>
<title> - SUMMER DRIVING DANGERS: EXPLORING WAYS TO PROTECT DRIVERS AND THEIR FAMILIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  SUMMER DRIVING DANGERS: EXPLORING WAYS TO PROTECT DRIVERS AND THEIR 
                                FAMILIES

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 23, 2019
                               __________

                           Serial No. 116-39


                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                                                
                             ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-556 PDF                WASHINGTON : 2021                           



                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr.,  New Jersey (ex 
    officio)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     3
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8
Hon. Robert Latta, a Representative in Congress from the State of 
  Ohio, opening statement........................................     9
    Prepared statement...........................................    10

                               Witnesses

Miles Harrison, Father of Chase Harrison.........................    11
    Prepared statement...........................................    13
Janette Fennell, President and Founder, Kidsandcars.org..........    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................    78
Gary Shapiro, President and CEO, Consumer Technology Association.    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................    85
Jason Levine, Executive Director, Center for Auto Safety.........    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................    88

                           Submitted Material

Letter of May 23, 2019, from Robbie Diamond, President and CEO, 
  Securing America's Future Energy, to Mr. Pallone, et al., 
  submitted by Ms. Schakowsky....................................    60
Letter of May 22, 2019, from Tim Day, Senior Vice President, C--
  TEC, U.S. Chamber of Commerce, to Ms. Schakowsky and Ms. 
  McMorris Rogers, submitted by Ms. Schakowsky...................    63
Statement of Safety, Innovation, and Autonomous Vehicles, May 22, 
  2019, by Jennifer Huddleston and Brent Skorup, Research Fellows 
  from the Mercatus Center at George Mason University, to Ms. 
  Schakowsky, submitted by Ms. Schakowsky \1\
Letter of May 23, 2019, from Marc Scribner, Senior Fellow 
  Competitive Enterprise Institute, to Mr. Pallone and Mrs. 
  McMorris Rodgers, submitted by Ms. Schakowsky..................    65
Statement of Advocates for Highway and Auto Safety, May 23, 2019, 
  by Catherine Chase, President, submitted by Ms. Schakowsky.....    66
Statement of the National Safety Council, May 23, 2019, submitted 
  by Ms. Schakowsky..............................................    73

----------

\1\ Statement has been retained in committee files and also is 
  available at https://docs.house.gov/meetings/IF/IF17/20190523/
  109548/HHRG-116-IF17-20190523-SD005.pdf.

 
  SUMMER DRIVING DANGERS: EXPLORING WAYS TO PROTECT DRIVERS AND THEIR 
                                FAMILIES

                              ----------                              


                         THURSDAY, MAY 23, 2019

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Jan Schakowsky (chairwoman of the subcommittee) presiding.
    Present: Representatives Schakowsky, O'Halleran, Lujan, 
Cardenas, Blunt Rochester, Soto, Matsui, McNerney, Pallone (ex 
officio), Rodgers (subcommittee ranking member), Latta, 
Guthrie, Bucshon, Hudson, Carter, and Walden (ex officio).
    Staff Present: Jeffrey C. Carroll, Staff Director; Evan 
Gilbert, Deputy Press Secretary; Lisa Goldman, Senior Counsel; 
Waverly Gordon, Deputy Chief Counsel; Daniel Greene, 
Professional Staff Member; Alex Hoehn-Saric, Chief Counsel, 
Communications and Consumer Protection; Zach Kahan, Outreach 
and Member Service Coordinator; Meghan Mullon, Staff Assistant; 
Tim Robinson, Chief Counsel; Chloe Rodriguez, Policy Analyst; 
Andrew Souvall, Director of Communications, Outreach and Member 
Services; Benjamin Tabor, Staff Assistant; Sydney Terry, Policy 
Coordinator; Mike Bloomquist, Minority Staff Director; Melissa 
Froelich, Minority Chief Counsel, Consumer Protection and 
Commerce; Peter Kielty, Minority General Counsel; Bijan 
Koohmaraie, Minority Counsel, Consumer Protection and Commerce; 
and Brannon Rains, Minority Legislative Clerk.
    Ms. Schakowsky. The Subcommittee on Consumer Protection and 
Commerce will now come to order.
    The Chair now recognizes--oh, I am sorry. The Chair now 
recognizes herself for 5 minutes for an opening statement.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning, and thank you so much for being with us 
today. Today's hearing is about promoting auto safety and 
raising awareness about the threats families face in our 
Nation's--on our Nation's roads, and off the roads as well, as 
we enter summer driving seasons.
    One of those threats is child vehicular heatstroke, which 
occurs when a child is left in an overheating car. I would like 
to take a moment to recognize two families who have endured 
such tragedies and turned their pain into action, advocating 
for legislation to make sure no child ever dies in an 
overheating car.
    Miles and Carol Harrison from Purcellville, Virginia. They 
are the parents of Chase, who died at only 21 months in a--on 
July 8, 2008, after being unknowingly left in a hot car.
    Erin Holly of Charlotte, South Carolina, her now 2-year-old 
son, Finn, was 4 weeks old when he was unknowingly left in her 
family car--in their family car. Fortunately, his parents 
quickly realized their mistake and rescued their baby boy. But 
just a few months later, one of Finn's daycare classmates died 
in a hot car. Shortly after, a 7-month old child in Erin's 
community also died in an overheated car.
    You know, there are far too many ways for parents to lose 
children that we can't control. We have a duty, however, to do 
everything we can to ensure that parents don't lose a child 
when we can prevent that. Fifty-two children died in heatstroke 
in cars last year, 52. In most cases, the parents 
accidentally--loving parents accidentally left their child in 
the car. Eight children died in hot cars so far this year. Just 
yesterday--just yesterday, a 5-month-old girl tragically died 
in a van sitting outside of her daycare.
    Education alone cannot solve this crisis. Even the most 
attentive parent can get distracted and inadvertently leave 
their child in a rapidly warming vehicle. A simple alert 
notification for parents that they have left their child in the 
car can save their lives.
    Yesterday, we had a press conference where several such 
technologies were displayed, proving that we have the 
technological skill that we need to prevent many of these 
tragedies. We do have to do an evaluation of those different 
technologies.
    You get a warning when you leave keys in the car or when 
you leave your lights on. Every new car should be equipped with 
technology to effectively alert parents if they learn that a 
child is in the car. That is why I am eager to reintroduce hot 
cars--the HOT CARS Act with Congressman Ryan and also 
Congressman King of New York, that new cars come equipped with 
an alert system.
    I also look forward to exploring many other safety 
technologies, such as automatic emergency braking, lane 
departures, departure warnings, and pedestrian detection that 
exist today and can dramatically reduce the number of 
automobile fatalities and injuries. But deployment of these 
safety features is slow and often reserved for those willing to 
pay a premium for advanced technologies in their cars. It is 
time for Congress to take decisive action to keep families 
safe, and we all have a track record--and we do have a track 
record of success.
    Last year, finally, rear backup cameras became standard in 
new vehicles; an issue that I championed for a long time before 
it actually became the law and was enforced. And thanks to the 
commitment of those parents, children, and advocates who made 
that happen. I look forward to exploring how we can ensure that 
all cars can be equipped with the best safety features.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    Good morning, thank you for being here with us.
    Today's hearing is about promoting auto safety and raising 
awareness about the threats families face on our nation's roads 
as we enter summer driving season.
    One of those threats is child vehicular heatstroke, which 
occurs when a child is left in an overheating car. I would like 
to take a moment to recognize two families who have endured 
such tragedies, and turned their pain into action, advocating 
for legislation to make sure no child ever dies in an 
overheating car.
    Miles and Carol Harrison from Purcellville, Virginia. They 
are the parents of Chase, who died at only 21 months old on 
July 8, 2008, after being unknowingly left in a hot car.
    Erin Holley of Charleston, South Carolina. Her now 2-year-
old son, Finn, was 4 weeks old when he was unknowingly left in 
their family car. Fortunately, his parents quickly realized 
their mistake and rescued their baby boy. But just a few months 
later, one of Finn's daycare classmates died in a hot car. 
Shortly after, a 7-month old child in Erin's community also 
died in an overheated car.
    There are far too many ways for parents to lose a child 
that we can't control. We have a duty to do everything we can 
to ensure that parents don't lose a child when we can prevent 
it.
    Fifty-two children died of heat stroke in cars last year. 
FIFTY-TWO. In most cases, the parent accidently leaves the 
child in the car. Eight children died in hot cars so far this 
year. Just yesterday, a 5-month-old girl tragically died in a 
van sitting outside of her daycare.Education alone cannot solve 
this crisis. Even the most attentive parent can get distracted 
and inadvertently leave their child in a rapidly warming 
vehicle.
    A simple alert notifying parents that they left their child 
in their car can save lives. Yesterday, I held a press 
conference where several such technologies were on display, 
proving that we have the technology needed to prevent many of 
these tragedies.
    You get a warning when you leave keys in the car or when 
you leave your lights on. Every new car should be equipped with 
technologies to alert parents if they leave a child in the car.
    That's why I am eager to reintroduce the HOT CARS Act with 
Congressman Ryan to mandate that new cars with come equipped 
with an alert system.
    I also look forward to exploring many other safety 
technologies--such as automatic emergency braking, lane 
departure warnings, and pedestrian detection--that exist today 
and can dramatically reduce the number of automobile fatalities 
and injuries every year.
    But deployment of these safety features is slow, and often 
reserved for those willing to pay a premium for advanced safety 
features.
    It's time for Congress to take decisive action to keep 
families safe.
    And we have a track record of success.
    Last year, rear back-up cameras became standard in new 
vehicles, an issue I championed after hearing devastating 
stories from parents whose children died in back- over 
accidents. Thanks to the commitment of those parents, children 
today are more protected.
    I look forward to exploring how we can ensure all cars can 
be equipped with the best safety features.

    Ms. Schakowsky. I now yield to the ranking member, Mrs. 
McMorris Rodgers.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Thank you, Madam Chairman. I want to just say 
thank you for your leadership on these important issues for 
many years, and now as the chair of this subcommittee.
    Welcome to everyone. Today, we are going to explore ways 
that we can protect drivers and their families from dangers on 
our roadways, as well as off our roadways, as the chairwoman 
just outlined.
    First, thank you, Mr. Harrison, for being here. Your story 
is powerful, and it is moving, and I want to commend you for 
your commitment to Chase.
    Several automakers have taken the challenge head on, of 
reducing instances children are left in cars. And there are 
also several startups focusing on other technologies to address 
these tragedies. I am committed to finding all paths to getting 
safety and safe technologies into cars faster. Sometimes that 
means industry needs certainty, and sometimes that means the 
market needs space for innovation, or both.
    This weekend is Memorial Day weekend, and it brings 
families and friends together. We honor those who have 
sacrificed their lives defending our rights and our freedom. It 
also unofficially marks the start of the summer vacation travel 
season, and with more travel, comes more risk on the roads.
    In recent years, more than 300 people have died over the 
holiday weekend, and some estimate that the number could 
increase over this weekend. I encourage everyone here and 
everyone watching: be safe, put your phone down, focus on 
driving. Do not drive if you have consumed any alcohol or other 
drugs. If you feel different, you drive different. Put on your 
seatbelt. Seatbelts save lives.
    Risk on our roadways also present safety concerns year 
round. Technology offers potential solutions to many of these 
safety concerns. Right now, advanced driver assistance systems 
are in more and more cars that we drive every day. Advanced 
driver assistance systems include automatic emergency braking, 
lane departure warning, crash avoidance technology, blind spot 
detection, vehicle-to-vehicle communications, V2X, and so much 
more.
    In fact, 20 automakers have voluntarily pledged to include 
automatic emergency braking, the AEB, in virtually all new 
passenger vehicles by September 2022. The Insurance Institute 
for Highway Safety estimates that by 2025, this agreement will 
prevent 28,000 crashes and 12,000 injuries. These systems are 
the foundation and building blocks for self-driving vehicles.
    We lose more than 37,000 lives a year on our roads. And 
according to the National Highway Traffic Safety 
Administration, 94 percent of all accidents are due to human 
error. These include distracted driving, driving while under 
the influence of alcohol or drugs, and even driving drowsy. The 
more we can safely automate the driving process, the more human 
error we can remove. As a result, we have greatly improved the 
safety of our roadways.
    In addition to drastically improving safety, self-driving 
vehicles offer vast mobility benefits. People with 
disabilities, our elderly community, and those not served by 
traditional public transportation stand to gain so much from 
widespread use of self-driving vehicles.
    Self-driving vehicles promise to improve freedom and 
mobility for our communities. Self-driving vehicles would make 
going to work, to the grocery store, across town to visit 
friends, or going to the doctor so much easier. Self-driving 
vehicles will restore independence and break down the 
transportation barriers for so many Americans.
    Self-driving vehicles are also important for our global 
standing. Right now, the United States is the global leader in 
innovation. To compete and remain the leader, we must do 
everything we can to advance the safe development and 
deployment of self-driving vehicle technology. Other countries 
are moving full speed ahead. Some are even developing their 
technology in our own backyard. Almost a quarter of all 
companies testing in California are Chinese.
    Earlier this year, I joined my colleagues, Republican 
Leader Walden and Representative Latta, urging this committee 
to continue the bipartisan work from last Congress to advance 
the safe development of self-driving cars.
    I want to thank the chairwoman, Chair Schakowsky, for 
holding this important hearing for us to explore ways, so many 
ways, in which we can improve auto safety and save lives.
    Thank you, and I yield back.
    [The prepared statement of Mrs. Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Good morning and welcome to the Consumer Protection and 
Commerce Subcommittee hearing. Today we will explore ways we 
can protect drivers and their families from dangers on our 
roadways.
    First, thank you Mr. Harrison for being here. Your story is 
powerful, and moving. I want to commend you for your commitment 
to Chase.
    Several automakers have taken the challenge of reducing 
instances children left in cars head on and there are also 
several startups focusing on other technologies to address 
these tragedies.
    I remain committed to finding all paths to getting safety 
technologies into cars faster--sometimes that means industry 
needs certainty and sometimes that means the market needs space 
for innovation or both.
    This weekend is Memorial Day Weekend. It brings families 
and friends together to remember and honor those who have 
sacrificed their lives defending our rights and Freedom.
    It also unofficially marks the start of the summer vacation 
travel season. With more travel comes more risks on our roads.
    In recent years, more than 300 people have died over this 
holiday weekend and some estimate that number could increase 
over this weekend. I would encourage everyone here and 
watching, please be safe.

    <bullet> Please put your phone down and focus on driving;
    <bullet> Please do not drive if you have consumed any 
alcohol or other drugs: "If you feel different, you drive 
different"; and
    <bullet> Please put your seat belt on . . . seat belts save 
lives.

    Risks on our roadways also present safety concerns year-
round. Technology offers potential solutions to many of these 
safety concerns.
    Right now, advanced driver assistance systems are in more 
and more of the cars we drive every day. Advanced driver 
assistance systems include automatic emergency braking, lane 
departure warning, crash avoidance technology, blind spot 
detection, vehicle-to vehicle communications, V2X, and so much 
more.
    In fact, 20 automakers have voluntarily pledged to include 
automatic emergency braking (AEB) in virtually all new 
passenger vehicles by September 2022.
    The Insurance Institute for Highway Safety (IIHS) estimates 
that by 2025, this agreement will prevent 28-thousand crashes 
and 12-thousand injuries.
    These systems are the foundation and building blocks for 
self-driving vehicles.
    We lose more than 37,000 lives a year on our roads, and 
according to the National Highway Traffic Safety 
Administration, 94 percent of all accidents are due to human 
error.
    These include distracted driving, driving while under the 
influence of alcohol or drugs, and even driving drowsy. The 
more we can safely automate the driving process, the more human 
error we can remove. As a result, we can greatly improve the 
safety of our roadways.
    In addition to drastically improving safety, self-driving 
vehicles offer vast mobility benefits. People with 
disabilities, our elderly community, and those not served by 
traditional public transportation stand to gain so much from 
widespread use of self-driving vehicles.
    Self-driving vehicles promise to improve freedom and 
mobility for our communities. Self-driving vehicles could make 
going to work, to the grocery store, across town to visit 
friends, or to go to the doctor so much easier.
    Self-driving vehicles will restore independence and break 
down transportation barriers for so many Americans.
    Self-driving vehicles also are important for our global 
standing. Right now, the U.S. is the global leader in 
innovation. To compete and remain the leader, we must do 
everything we can to advance the safe development and 
deployment of self-driving vehicle technology.
    Other countries are moving full speed ahead. Some are even 
developing their technology in our own backyard. Almost a 
quarter of all companies testing in California are Chinese.
    Earlier this year, I joined my colleagues Republican Leader 
Walden, and Rep. Latta urging this Committee to continue the 
bipartisan work from last Congress to advance the safe 
development of self-driving cars.
    I want to thank Chair Schakowsky for holding this important 
hearing for us to explore ways in which we can improve auto 
safety.
    Thank you and I yield back.

    Ms. Schakowsky. The gentlewoman yields back.
    And now I recognize Chairman Pallone for 5 minutes for his 
opening statement.
    Mr. Pallone. Thank you, Madam Chair.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    This hearing is particularly timely as the Memorial Day 
weekend is one of the busiest travel weekends of the year. 
Millions of Americans are taking to the Nation's roads to 
travel to barbecues and beaches; including many heading to the 
Jersey Shore.
    But this can be a dangerous weekend too. Nearly 350 people 
died in motor vehicle crashes over Memorial Day weekend in 
2017. And as temperatures rise, so does the risk of heatstroke 
for children left in cars. In 2017, more than 40,000 people 
died as a result of a motor vehicle accident, and 4.6 million 
were injured.
    Unfortunately, automobile fatalities are on the rise. Motor 
vehicle death rates have steeply increased since 2014, after 
nearly a decade of falling. It is a troubling trend suggesting 
that we need to double down on our efforts to improve the 
safety of our roadways.
    Technologies exist that will vastly improve motor vehicle 
safety, but we must find ways to get them in the hands of all 
drivers. Take, for example, heatstroke victims in cars. One 
child's death is an extraordinary tragedy. Fifty-two is a 
crisis. Last year, 52 children died from heatstroke after being 
left in hot cars. Over the last 20 years, 802 children have 
been lost from these types of tragedies, and more than half of 
those deaths occur when a distracted parent accidentally leaves 
his or her child in a vehicle.
    This is a heartbreak, obviously, that Mr. Harrison knows 
all too well.
    Mr. Harrison, I am sorry for your loss, and I thank you for 
sharing your son's stories in hopes that we can end these sorts 
of devastating accidents.
    There are ways we can prevent kids from dying from 
vehicular heatstroke. Technologies alerting drivers to check 
their backseats for children exist today, but have not been 
widely deployed.
    This crisis requires action. Just yesterday, there was 
another tragic death in Florida when a baby girl died after 
being left in a daycare van for several hours; and that is why 
I applaud Chairwoman Schakowsky and Congressman Ryan for the 
work on the HOT CARS Act, legislation that would require 
vehicles to be equipped with safety technologies alerting 
drivers to check their rear seat after a car is turned off.
    These and other existing safety technologies hold the 
promise of saving lives and reducing both the number and the 
severity of auto crashes. Crash avoidance technologies like 
automatic emergency brakes, rear automatic braking, blind spot 
detection, and lane departure warnings are all proving to 
reduce crashes.
    Similarly, the Insurance Institute for Highway Safety 
estimates that adaptive headlights, which automatically channel 
light around curbs without causing glare for oncoming traffic, 
could help prevent up to 90 percent of nighttime curb crashes. 
These headlights are available overseas but are not legal in 
the United States.
    Yet NHTSA has not done much to require or even encourage 
automakers to make lifesaving technology standard. If an 
automotive feature or technology proves it can save lives, it 
should not be a luxury reserved only for those who can afford 
to buy the high-end car. These sorts of safety technologies 
should become a standard, in our cars, as seatbelts and air 
bags.
    NHTSA is even failing at educating consumers and 
incentivizing manufacturers to adopt safety features. The New 
Car Assessment Program managed by NHTSA provides ratings on a 
scale from one to five stars for vehicle performance in crash 
and rollover tests. This five-star safety rating is supposed to 
be a tool that helps consumers make more informed decisions 
when purchasing their vehicles and encourages manufacturers to 
exceed minimum safety standards.
    But this safety seal has become a more--basically, a mere 
participation trophy. Ninety-nine percent of 2016 models 
received four or five stars, the highest ratings. The very 
integrity and value of the five-star safety rating is 
undermined if the certification does not draw meaningful 
distinctions between the safety of different vehicles.
    It is also not meaningful if the safety certification fails 
to include crucial safety technologies already deployed on 
automobiles. Unfortunately, the five-star safety rating does 
not account for advanced crash avoidance technologies like 
four-wheel collision warning, lane departure warning, and blind 
spot detection.
    NHTSA started to update the program in 2015, but has yet to 
make needed changes. We must modernize the five-star safety 
rating for the 21st century automobile so consumers can be 
empowered to identify and purchase the safest car of their 
choosing.
    So I thank our witnesses for testifying this morning.
    Madam Chair, I want to say that I really am impressed by 
all of the--not only the hearings that you have been having, 
but the initiatives that are coming forward on consumer 
protection. Which I really think has, you know, kind of been 
neglected in the past. You are making sure that when we deal 
with consumer issues, that they are once again in the 
forefront. So I appreciate that. Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    This hearing is particularly timely, as the Memorial Day 
weekend is one of the busiest travel weekends of the year. 
Millions of Americans are taking to the nation's roads to 
travel to barbeques and beaches--including many heading to the 
Jersey shore. But this can be a dangerous weekend too. Nearly 
350 people died in motor vehicle crashes over Memorial Day 
weekend in 2017. And as temperatures rise, so does the risk of 
heatstroke for children left in cars.
    In 2017, more than 40,000 people died as a result of a 
motor vehicle accident, and 4.6 million were injured. And, 
unfortunately, automobile fatalities are on the rise. Motor 
vehicle death rates have steeply increased since 2014, after 
nearly a decade of falling. It's a troubling trend suggesting 
that we need to double down on our efforts to improve the 
safety of our roadways.
    Technologies exist that will vastly improve motor vehicle 
safety. We must find ways to get them in the hands of all 
drivers.
    Take for example heatstroke victims in cars. One child's 
death is an extraordinary tragedy. Fifty-two is a crisis. Last 
year, 52 children died from heatstroke after being left in hot 
cars. Over the last 20 years, 802 children have been lost from 
these types of tragedies, and more than half of these deaths 
occur when a distracted parent accidently leaves his or her 
child in a vehicle.
    This is heartbreak Mr. Harrison knows all too well. Mr. 
Harrison, I am so sorry for your loss. I thank you for sharing 
your son's story in hopes that we can end these sorts of 
devastating accidents.
    There are ways we can prevent kids from dying from 
vehicular heatstroke. Technologies alerting drivers to check 
their backseats for children exists today but has not been 
widely deployed. This crisis requires action. Just yesterday 
there was another tragic death in Florida when a baby girl died 
after being left in a day care van for several hours. And 
that's why I applaud Chairwoman Schakowsky and Congressman Ryan 
for their work on the HOT CARS Act--legislation that would 
require vehicles to be equipped with safety technologies 
alerting drivers to check the rear seat after a car is turned 
off.
    These and other existing safety technologies hold the 
promise of saving lives and reducing both the number and the 
severity of automobile crashes. Crash avoidance technologies 
like automatic emergency brakes, rear automatic braking, blind 
spot detection, and lane departure warnings are all proving to 
reduce crashes. Similarly, the Insurance Institute for Highway 
Safety estimates that adaptive headlights--which automatically 
channel light around curves without causing glare for oncoming 
traffic--could help prevent up to 90 percent of nighttime curve 
crashes. These headlights are available overseas but are not 
legal in the United States.
    Yet, NHTSA has not done much to require or even encourage 
automakers to make life-saving technologies standard. If an 
automotive feature or technology proves it can save lives, it 
should not be a luxury reserved only for those who can afford 
to buy the highest end cars. These sorts of safety technologies 
should become as standard in our cars as seatbelts and airbags.
    NHTSA is even failing at educating consumers and 
incentivizing manufacturers to adopt safety features. The New 
Car Assessment Program managed by NHTSA provides ratings on a 
scale from one to five stars for vehicle performance in crash 
and rollover tests. This 5-Star Safety Rating is supposed to be 
a tool that helps consumers make more informed decisions when 
purchasing their vehicles and encourages manufacturers to 
exceed minimum safety standards. But this safety seal has 
become a mere participation trophy. Ninety-nine percent of 2016 
models received 4 or 5 stars, the highest ratings.
    The very integrity and value of the 5-Star Safety Rating is 
undermined if the certification does not draw meaningful 
distinctions between the safety of different vehicles. It is 
also not meaningful if this safety certification fails to 
include crucial safety technologies already deployed on 
automobiles.
    Unfortunately, the 5-Star Safety Rating does not account 
for advanced crash avoidance technologies, like forward 
collision warning, lane departure warning, and blind spot 
detection.
    NHTSA started to update the program in 2015 but has yet to 
make needed changes. We must modernize the 5-Star Safety Rating 
for the 21st century automobile, so consumers can be empowered 
to identify and purchase the safest car of their choosing.
    I thank our witnesses for testifying this morning, and I 
look forward to the discussion.

    Ms. Schakowsky. Thank you, Mr. Chairman.
    In lieu of the ranking Republican, Mr. Latta is now 
recognized for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you, Madam Chair. And thank you very 
much for holding today's hearing.
    And I want to thank all of our witnesses, and especially 
you, Mr. Harrison, for being with us today.
    As has been mentioned, this weekend is Memorial Day weekend 
and the unofficial start of summer. Summertime means school is 
out and families across the country are hitting the roads for 
vacation. It can also mean more inexperienced drivers behind 
the wheel, added congestion, and increased unpredictability on 
our roadways.
    Today, we have the opportunity to discuss the bipartisan 
efforts this subcommittee can make to promote the development 
and deployment of different technologies that have the 
potential to address some of these concerns and, ultimately, 
save thousands of lives.
    In 2016 alone, more than 37,000 people lost their lives on 
U.S. highways. Ninety-four percent of the accidents are 
attributed to human error, including driver distraction and 
inattention. I believe there are technologies we can utilize to 
prevent the loss of life during the summertime driving season 
and any time.
    Today, many cars are already equipped with active safety 
features or semiautonomous driving systems. These systems known 
as advanced driver assistance systems help drivers stay within 
their designated lane, accelerate to pass a slow-moving 
vehicle, safely change lanes, avoid front-end collisions, and 
even park. These advanced systems demonstrate the important 
role technology plays to address auto safety concerns, and are 
the foundation for the eventual deployment of self-driving 
vehicles.
    That is why last Congress I introduced, with Chairman 
Schakowsky, the bipartisan Self Drive Act, which clarified the 
Federal and State roles in regulating self-driving vehicles, 
provided much needed updates to outdated statutory and 
regulatory barriers, and ensured that the National Highway 
Traffic Safety Administration gets the data it needs, all while 
focusing on consumer safety and improving mobility for 
individuals with disabilities or senior citizens and those 
underserved by inadequate public transportation.
    Included in the legislation was also language to spur 
innovation around technology to help avoid the tragedy of a 
child losing his or her life in a hot vehicle. U.S. companies 
are investing major resources in the research and deployment of 
these technologies, and the Self Drive Act would have provided 
much needed certainty and updates to existing rules to unleash 
this innovation.
    Earlier this year, I joined Republican Leaders Walden and 
Rodgers in requesting the gentleman from New Jersey, the 
chairman of the full committee, that this committee stay 
focused on this issue. I believe our work on the SELF DRIVE Act 
was an example of this committee at its best, working together 
in an open process on technology that will save lives.
    Since the legislation passed unanimously both in committee 
and on the House floor, it is my hope that we can make this 
issue a priority again in this Congress. Within this 
subcommittee, the gentle lady from Illinois, our chair, has 
worked tirelessly to promote technology to seek to prevent the 
tragedies we have heard about when a child is left in a hot 
car. I commend her for her work, and stand committed to working 
with her in a bipartisan way to implement policies that could 
reduce these tragedies.
    We have an opportunity to work towards ending senseless 
deaths on our roads by making investments in technology. I want 
to thank our members and staff on both sides of the aisle for 
their hard bipartisan work on this issue.
    Again, I thank the gentle lady for having this committee 
hearing today, and I yield back the balance of my time.
    [The prepared statement of Mr. Latta follows:]

                Prepared Statement of Hon. Robert Latta

    Good morning, I would like to thank our Chair for holding 
this important hearing, and I thank our witnesses for being 
here. This weekend is Memorial Day Weekend and the unofficial 
start to summer. Summertime means school is out and families 
across the country are hitting the road for vacation. It can 
also mean more inexperienced drivers behind the wheel, added 
congestion, and increased unpredictability on our roadways.
    Today, we have the opportunity to discuss the bipartisan 
efforts this Subcommittee can make to promote the development 
and deployment of different technologies that have the 
potential to address some of those concerns and ultimately save 
thousands of lives.
    In 2016 alone, more than 37,000 people lost their lives on 
U.S. highways. Ninety-four percent of accidents are 
attributable to human error, including driver distraction and 
inattention. I believe there are technologies we can utilize to 
prevent the loss of life during the summer driving season. 
Today, many cars are already equipped with active safety 
features or semi-autonomous driving systems. These systems, 
known as advanced driver assistance systems, help drivers stay 
within their designated lane; accelerate to pass a slow-moving 
vehicle; safely change lanes; avoid front end collisions; and 
even park. These advanced systems demonstrate the important 
role technology plays to address auto safety concerns and are 
the foundation for the eventual deployment of self-driving 
vehicles.
    That is why last Congress I introduced, with Chair 
Schakowsky, the bipartisan SELF-DRIVE Act, which clarified the 
Federal and State roles in regulating self-driving vehicles, 
provided much needed updates to outdated statutory and 
regulatory barriers, and ensure the National Highway Traffic 
Safety Administration gets the data it needs--all while 
focusing on consumer safety and improving mobility for 
individuals with disabilities, our senior citizens, and those 
underserved by inadequate public transportation.
    Included in the legislation was also language to spur 
innovation around technology to help avoid the tragedy of a 
child losing their in a hot car. U.S. companies are investing 
major resources in the research and development of these 
technologies and the SELF-DRIVE Act would have provided much 
needed certainty and updates to existing rules to unleash this 
innovation.
    Earlier this year, I joined Republican Leaders Walden and 
Rodgers in requesting Chairman Pallone stay focused on this 
issue. I believe our work on the SELF-DRIVE Act was an example 
of this committee at its best: working together, in an open 
process on technology that will save lives. Since this 
legislation passed unanimously both in Committee and on the 
House Floor, it is my hope that we can make this issue a 
priority again this Congress.
    Within this Subcommittee, Chairwoman Schakowsky has also 
worked tirelessly to promote technologies that seek to prevent 
the tragedies we have heard about when a child is left in a hot 
car. I commend her for her work and stand committed to working 
with her in a bipartisan way to implement policies that could 
reduce these tragedies.
    We have an opportunity to work towards ending senseless 
deaths on our roads by making investments in technology. I want 
to thank our members and staff on both sides of the aisle for 
their bipartisan work.
    Thank you again, and I yield back my time.

    Ms. Schakowsky. I thank the gentleman.
    I want to assure you that we will be working in a 
bipartisan way with the autonomous vehicles but also the safety 
protection bills. I hope everyone will come on as a co-sponsor 
of the HOT CARS Act.
    So now it is my privilege to introduce our witnesses today. 
I did want to point out that there is a slightly different 
feature available today, and those are boxes of tissue; because 
we are dealing with a very, very sensitive issue today, among 
others.
    Our witnesses are Miles Harrison, who is the father of 
Chase Harrison; Janette Fennell, the president and founder of 
KidsAndCars organization; Gary Shapiro, who is president and 
CEO of Consumer Technology Association; and Jason--Levine or 
Levine?
    Mr. Levine. Levine.
    Ms. Schakowsky. Levine, executive director of the Center 
for Auto Safety.
    We want to thank our witnesses for joining us today. We 
look forward to your testimony.
    I failed to mention that all members can submit for the 
record opening statements. But at this time, the Chair will now 
recognize each witness for 5 minutes to provide their opening 
statement.
    I think most people here understand the light system. You 
have a series of lights. The light will initially be green at 
the start of your opening statement. The light will then turn 
yellow when you have 1 minute remaining, and please begin to 
wrap up testimony at that point. The light will turn red when 
your time has expired.
    So, Mr. Harrison, again, very grateful for you to be here. 
I know this is difficult. We all do. You are recognized for 5 
minutes.

STATEMENTS OF MILES HARRISON, FATHER OF CHASE HARRISON; JANETTE 
FENNELL, PRESIDENT AND FOUNDER, KIDSANDCARS.ORG; GARY SHAPIRO, 
 PRESIDENT AND CEO, CONSUMER TECHNOLOGY ASSOCIATION; AND JASON 
       LEVINE, EXECUTIVE DIRECTOR, CENTER FOR AUTO SAFETY

                  STATEMENT OF MILES HARRISON

    Mr. Harrison. Thank you, ma'am, very much. And for everyone 
here, thank you for your time.
    Eleven years ago, it was a typical day at my home; everyone 
getting up, getting ready to head out the door, as well as 
myself getting ready to go to work. Like many parents, I was 
multitasking; thinking of all the things to do during the day. 
We were rushing around, rushing around, not very organized.
    My world changed forever that day. When I went to my office 
I was focused on all the work problems that people typically 
focus on, and the day flew by. I even went out to lunch with my 
boss. We talked about all the problems, all the pressures.
    Having no idea what time it was, at the end of the day, a 
colleague of mine came up to my office around 5 p.m. And said, 
``hey, do you have a doll in your car?'' And I said, ``a doll? 
What are you talking about?''
    It was then that I realized, oh my God, oh my God, what 
have I done! I ran outside of my office and rushed to my car. I 
saw my son Chase through the window. I threw open the car door 
and grabbed him and rushed into my office carrying him and 
screaming, ``oh my God, oh my God!'' I had not dropped him off 
at daycare.
    I was so distraught and upset I couldn't see straight. I 
was taken by ambulance to the emergency room. And I remember a 
nurse asking me if I wanted something for the pain, and I said, 
``I don't deserve that. I need to feel all this pain.''
    From the hospital they took me to the police station where 
the police insinuated that I had murdered my son. The first 
thing they asked me is if I had life insurance on my son. I 
didn't even think about that.
    From the police station I was taken to a hospital where I 
stayed under an assumed name for two weeks, because if I had 
checked in with my real name, I would have been arrested. 
During my hospital stay, my son had a funeral, which I was not 
allowed to attend. I made my own funeral by pulling out the 
trundle part of my bed and had my own funeral because I could 
not go to my son's.
    My story continues with a very public trial, fighting a 
charge of involuntary manslaughter which, thank God, I was 
found not guilty. But it didn't matter to me. I was already 
guilty; so full of shame and embarrassment and anger. I had 
killed my son.
    I cry every day for Chase. I still haven't forgiven myself, 
don't know if I ever will.
    After the trial, Gene Weingarten wrote a Pulitzer Prize 
article called ``Fatal Distraction'' about parents who have 
gone through what my family has gone through.
    This didn't have to happen. If there had been a simple 
alert in my car, this would not have happened. Children are 
dying unnecessarily. Families are being destroyed.
    In my son's honor, we have made it a mission to try to help 
Congress implement some sort of a car warning system. Please, I 
implore you to enact this legislation.
    I know my time is running up, so I am going to be--I am 
going to stop. But I want to thank you all for hearing my 
testimony. And please help us.
    [The prepared statement of Mr. Harrison follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you so much.
    Ms. Fennell, you are recognized for 5 minutes.

                  STATEMENT OF JANETTE FENNELL

    Ms. Fennell. Madam Chairwoman, I am Janette Fennell, the 
founder and president of KidsAndCars.org. We are an 
organization dedicated to improving safety of children in and 
around motor vehicles. KidsAndCars.org appreciates the 
opportunity to express our views on the HOT CARS Act and other 
available technologies that will save the lives of children.
    In 1996, my family was kidnapped at gunpoint in San 
Francisco and locked in the trunk of our car. Thankfully, we 
all survived and used this traumatic experience to help guide 
the Federal regulatory process to ensure that no one else had 
to end up in the trunk of a vehicle without a means of escape. 
Now, all vehicles come with an internal trunk release as 
standard equipment.
    Though we are proud of that accomplishment, the most 
important lesson we continue to learn every day is that the 
simple changes to vehicles save lives. In fact, not one person 
has died in a vehicle equipped with an internal trunk release, 
not one.
    We are showing a chart here that talk about hot car deaths. 
Starting in the mid-1990s, parents were told to transport their 
children in the backseat of vehicles to protect them from the 
air bags in the front seat. Laws were passed requiring this 
behavior, and that forever changed the way American children 
are transported.
    As you can see from this chart, while we have basically 
eradicated children being killed by overpowered air bags, 
children continue to die in hot cars.
    When most people think about memory, they think about 
retrospective memory, the ability to recall things from the 
past. The other type of memory is prospective memory, the 
ability to plan and execute an action in the future; for 
example, the intention to drop a baby at daycare.
    Prospective memory is more prone to forgetfulness. If 
ever--if you have ever forgotten something on top of your car 
or failed to run an errand, you have experienced the fickleness 
of our prospective memory. Unknowingly leaving a child in a 
vehicle is a prospective memory failure.
    Studies show that, in autopilot, the brain is unable to 
account for a change in routine. The reason is that when you 
are in autopilot, you are functioning on your habit memories, 
not what is exactly happening in the here and now. The catch 
here is that the habit memory suppresses and completely takes 
over the prospective memory, regardless of the importance of 
your plan.
    Autopilot is most common during times of stress and 
fatigue, both of which all parents of young children 
experience. These cognitive failures have nothing to do with a 
parent's love for their child or the ability to care for them. 
No one in this world has an infallible memory.
    We need to focus on technology because we have proven, year 
after year, that knowing this can happen to you when hearing it 
on the news is not changing anything. A detection system is a 
must. Right now, somewhere in the United States dozens of 
families are going about their daily lives unaware by the 
year's end, their child will die in a hot car.
    Now, let's talk about frontovers. NHTSA's 2018 report 
states that frontovers are responsible for 366 deaths and 
15,000 injuries. Toddlers are extremely vulnerable because they 
have established independent mobility at about 1 to 2 years of 
age, yet they have not developed the cognitive ability to 
understand danger. Young children are impulsive, unpredictable, 
and still have very poor judgment. This is a real combination 
for a disaster.
    Automatic emergency braking or a bird's eye, or 360-degree 
view technology, uses a series of cameras and sensors all 
around the vehicle allowing drivers to see all sides of that 
vehicle.
    And now keyless ignition, this is a vehicle design flaw 
that can be easily remedied with an automatic ignition shutoff 
feature. Many drivers are accustomed to using a traditional key 
to start and stop their vehicle. When a traditional key is 
removed, that means the vehicle engine is turned off. However, 
in vehicles with a keyless ignition, the driver can walk away 
with their key fob in their hand while the vehicle is left 
running.
    And as I wrap up, I can say nothing more eloquent than a 
statement that was made in Automotive News. ``All safety-
related devices should become standard equipment on all 
vehicles. No choice. It is not an economic decision. It is a 
moral decision. When the choice becomes profit versus lives, 
the decision should be simple.''
    Thank you.
    [The prepared statement of Ms. Fennell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you so much.
    I do want to announce that a vote has been called. We have 
time, I think, for Mr. Shapiro's 5 minutes, and I recognize you 
now, then we will break, and hopefully, all those here can come 
back. I will be here.
    Mr. Levine. I will be here too.
    Ms. Schakowsky. OK.

                   STATEMENT OF GARY SHAPIRO

    Mr. Shapiro. Chair Schakowsky, Ranking Member McMorris 
Rodgers, and members of the subcommittee, thank you for giving 
me this opportunity to testify.
    The Consumer Technology Association represents over 2,200 
American technology companies, 80 percent of whom are small 
businesses and startups. We also own and produce CES. It is the 
largest and most influential tech event in the world. It is the 
largest business event in the world in Las Vegas every January.
    We applaud you and this committee for addressing this 
important issue, vehicle safety, especially around the busy 
summer driving season. We know that many lifesaving 
technologies exist, and others, such as self-driving 
technology, are quickly advancing.
    At CES 2018, Carol Staninger, a passionate advocate for the 
welfare of children and president of Ancer, exhibited her 
innovation for the first time. She was 82 years old. After 
seeing news stories about children and pets accidentally left 
in hot cars, Carol decided that she could make a difference 
through technology. She invented a presence detector and alarm 
device called Save Our Loved Ones to prevent children, seniors, 
and pets from being left alone in cars.
    Many other entrepreneurs have introduced devices to solve 
this specific problem using connected car seats, apps, and 
Bluetooth. They all help remind parents to check the backseat.
    Automakers have also worked to address this problem. Nissan 
has the rear-door alert system which monitors when the rear 
door is open and closed, before and after the vehicle is in 
motion. Several other tech-enabled safe driving products can 
increase safety. There are tools to help parents monitor 
teenage drivers, prevent distraction, and alert first 
responders in the case of an emergency.
    You have heard the statistics today 30,000 to 40,000 people 
are dying every year on U.S. roads. That is more than 100 
deaths per day, and 94 percent of serious crashes are due to 
human error. And on average, 11 children die in auto accidents 
every week-and we can prevent those tragedies.
    Self-driving vehicles will lead to a huge reduction in 
roadway fatalities. They cannot become distracted, fatigued, or 
impaired, and they have a 360-degree viewing angle around the 
vehicle. Not only will self-driving vehicles save lives, they 
will empower seniors and people with disabilities. And full 
adoption of self-driving vehicles could cut insurance premiums 
by some 40 percent. We will see increased productivity as 
people waste less time in traffic. We will need fewer parking 
structures, opening new areas for green space.
    And every day, there are advances in self-driving vehicles. 
Many companies, both here and abroad, are already testing self-
driving vehicles, with countries like China vying for the lead.
    The road to fully self-driving vehicles is a global 
competition, and we expect every leading nation to confront 
tough issues such as self-driving accidents, which will occur, 
although in minuscule numbers compared to our national annual 
carnage from human drivers.
    Some argue that self-driving vehicles should not be 
deployed until systems are perfect. This is a dangerous road; 
as perfection may be a long, unreachable goal. Every year that 
we delay self-driving, we are costing tens of thousands of 
American lives. A RAND report found that deploying cars that 
are just 10 percent safer than the average human driver will 
save more lives than waiting until those cars are 70 percent or 
90 percent better.
    We will be able to save millions of lives in the future, 
but only if we move forward. The perfect must not be the enemy 
of the great. We don't have to wait for fully self-driving 
vehicles to start reducing the number of deaths. Driver-assist 
technology is already saving lives, avoiding accidents, and 
paving the way for completely self-driving innovations to come.
    Advanced driver assistance systems can prevent nearly 30 
percent of all crashes, saving 10,000 lives a year. There are 
technologies that help drowsy or inattentive drivers stay 
focused and provide specific responses, such as automatic 
braking and lane drift avoidance. And the aftermarket industry 
provides a valuable service in allowing consumers to add these 
great technologies to vehicles they already own. And Congress 
and the Department of Transportation have already recognized 
the value of these vehicles.
    Last year the SELF DRIVE Act, which Chair Schakowsky and 
Congressman Latta both introduced, as you said, and which we 
supported, passed out of this committee and the House 
unanimously. It would have given a jump start towards adopting 
our vehicle safety laws to address self-driving and would have 
made a huge difference in creating more opportunities for 
testing and development. Sadly, politics got in the way of it 
crossing the finish line in the Senate, but I am encouraged by 
the continued efforts of the Department of Transportation and 
members on both sides of the aisle to move our country forward 
and advance this lifesaving technology.
    I ask you to continue your leadership. There are 
challenges. Much work remains to be done, but we are heading 
towards zero fatalities.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Shapiro follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you very much.
    Mr. Levine, we will hear from you when we come back. And 
please, come right back after votes. There are three votes. 
Thank you.
    We are in recess.
    Ms. Schakowsky. The meeting will reconvene, if Mr. Harrison 
could go back to the table. Oh, there he is. OK. Thank you.
    We ready, Mr. Levine?
    Mr. Levine. Yes.
    Ms. Schakowsky. You may proceed for 5 minutes. Thank you.

                   STATEMENT OF JASON LEVINE

    Mr. Levine. Thank you.
    Good, morning. Thank you, Chairman Pallone, Chairwoman 
Schakowsky, Ranking Member Walden, and Ranking Member Rodgers, 
for holding this important meeting.
    My name is Jason Levine, and I am the executive director of 
the Center for Auto Safety. Since 1970, the Center has been the 
Nation's premier independent nonprofit advocacy organization 
focused on auto safety, quality, and fuel economy. On behalf of 
our members and all drivers, passengers, and pedestrians, we 
work every day to get unsafe cars and trucks off the road as 
quickly as possible.
    There are far too many defective vehicles and unrepaired, 
recalled cars and trucks on our Nation's roads. Yet our mission 
has also always included pressing for vehicles of tomorrow to 
be as safe as possible. In our five decades, we have 
successfully advocated for car companies to install advanced 
safety technology from airbags to electronic stability control, 
from antilock brakes to backup cameras.
    During that same time, we have urged the Department of 
Transportation to create performance standards to ensure these 
new technologies work as advertised, provide the appropriate 
level of safety, and make safety features standard equipment 
and not luxury add-ons.
    Sadly, while Silicon Valley, Detroit, and Wall Street use a 
lot of happy talk about millions of robot cars coming to save 
the world in the next few months, back here on planet Earth, 
auto crash deaths and injuries continue to represent a public 
health crisis. They are the leading cause of death for 5- to 
24-year-olds in the United States and are responsible for more 
than 38,000 funerals annually. That is the equivalent of almost 
every man, woman, and child in Park Ridge, Illinois, or 
Pullman, Washington.
    Unfortunately, instead of writing minimum performance 
standards to require existing safety technology, the current 
administration seems to prefer deferring to whatever the auto 
industry finds most profitable at the moment. The crash 
avoidance technology features often highlighted in TV 
commercials, including automatic emergency braking, lane 
departure warnings, or adaptive headlights, all exist in an 
unregulated State with varying, unpredictable, and poorly 
measured performance. This lack of standards leads to consumer 
confusion and diminishes the increased safety protections that 
this technology promises.
    Moreover, even existing congressional mandates through the 
Department of Transportation are regularly ignored. Rules for 
rear seatbelt reminder systems, front and side impact 
requirements for child seats, rollover integrity for buses, and 
use of e-mail for recall notifications are each many, many 
years overdue.
    Sadder still, the groundbreaking New Car Assessment 
Program, NCAP, better known as America's five-star crash rating 
system, has been allowed to become an afterthought when 
compared to our foreign competitors, all of whom base their 
programs on our NCAP. This is the equivalent of the United 
States no longer being a force in basketball on the world 
stage.
    NHTSA's failure to update the program, combined with steps 
taken last year to freeze the current ratings in place, means 
that receiving a five-star crash rating will soon be the 
equivalent of receiving a Little League participation trophy.
    The ability of safe--of the--sorry. The ability to improve 
the safety of the 17 million new vehicles sold to the United 
States every year remains in our collective reach. NHTSA must 
set mandatory performance standards in order to create a level 
playing field and ensure the safety technology meets minimum 
levels of functionality. Otherwise, consumer safety is 
dependent either upon economic status or seeking civil justice 
after a tragedy; neither of which is a long-term solution.
    Yet as part of the deregulatory fever which has gripped 
NHTSA, instead of writing safety standards, the agency is 
withdrawing rulemakings with known safety benefits, including 
updating event data recorders and requiring electronic throttle 
control to mitigate instances of sudden acceleration.
    Auto safety is not now and should never be a partisan 
issue. The safety of our families and friends, our neighbors on 
the road, our dogs, pedestrians on our streets, the bicyclists 
in our bike lanes, can be improved today through technology and 
congressional leadership. We greatly appreciate this committee 
shining your spotlight on an issue that impacts every single 
American. On behalf of our members across the country, the 
Center for Auto Safety stands ready to help you in these 
efforts.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Levine follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. And we will now begin the portion where 
members can ask questions. Each of us has 5 minutes, and I 
will--I will begin.
    Ms. Fennell, how quickly can a car reach dangerous 
temperatures on a warm day?
    Ms. Fennell. I think it happens much more quickly than 
people understand. In fact, 80 percent of the heat that is 
going to accumulate in your car happen in the first 10 minutes. 
So by the time the child or anyone is in a car for as much as 
an hour, the temperature has spiked as much as 40 to 50 
degrees. And you can imagine, on an 80-degree day, how warm 
that vehicle gets.
    Ms. Schakowsky. I wanted to ask you about the technology. 
As you know, right now, the HOT CARS Act does not specify any 
particular technology. Are some better than others, and what 
are the things that, in your view, ought to be basic essentials 
in any technology?
    Ms. Fennell. Well, some of the technology out there is a 
very good start, but what really needs--what we really need is 
something that detects the presence of a child, an animal, or 
any occupants that cannot get out of the car on their own. So 
what is needed is something that detects the presence of a 
living being, and that is available. We demonstrated it 
yesterday. So that really is what is needed to end this issue.
    Ms. Schakowsky. Thank you.
    Mr. Levine, I was told--maybe I--I wasn't able to see the 
technologies. So I was told that something, one of them 
connected to the fob. I don't have a key to my car, but I have 
got a fob, which I never touch. It is in my purse. It opens the 
door. I can start the car. I don't ever touch it.
    Have you heard of that? I mean, I want to say that that 
would not be sufficient in any way if it only dealt with that 
kind of a notification. I am not so sure either about text 
messages or whatever. I am not looking at my phone all the 
time. And so when you think about the technologies, I am 
thinking about hot cars again, do you have any suggestions that 
we ought to take in mind?
    Mr. Levine. Well, thank you for the question. I think that 
the first issue we have identified is we need to use technology 
to remind people that they make mistakes. We all make mistakes. 
No mistake should cause a tragedy.
    Manufacturers are experimenting with different 
technologies, and I believe your fob vibrating is one of them. 
Text messaging is another one. The more important question is 
what is going to work, not just what is feasible. And so that 
is going to require some consumer testing. That is going to 
require some research study. But, obviously, the more audible 
the warning, the more visible, the more--the more urgent that 
warning is, the more likely we are going to save lives.
    So, you know, it is good to see experiments. Maybe it is 
all of those things combined. Maybe you are opting into some 
and some are mandatory. But you are right; if it is something 
that is not going to actually help you, then there is no point 
in having it, other than putting out an advertisement.
    Ms. Schakowsky. OK. I just want to go on record as saying 
the two things that you said, a text message or just going to 
the fob, I think is absolutely not sufficient. Wouldn't be for 
me.
    I wanted to--well, I think you have said, Ms. Fennell, how 
this legislation would help protect children in vehicle 
accidents, but what is your--what is your priority in this 
legislation? What do you want to see happen? And are the 
technologies there now that are sufficient to make children 
safe?
    Ms. Fennell. Well, thank you for that question. And I want 
to piggyback a little bit on Mr. Levine's comment, because the 
systems that we are seeing today have redundancy. So if a child 
is locked in the car, it is really up to the OEM. Do they want 
them to be a loud horn? Do they want it to be a text message? 
They can choose how that person is alerted. And there are, you 
know, many different layers, if The OEM picks I want those two 
or those three. So, obviously, the more the better.
    But there is software available now. It is called door 
sequencing. So if you open your back door within 10 minutes of 
leaving for your trip, when you arrive, you will get a little 
flash on your dashboard that says check the rear seat, and 
that--we welcome that, but it doesn't say if there is a child 
in the car or not. And, for instance, if on your way to work, 
you know, you have opened that back door, you go and you stop 
for gas and you don't open that back door, when you arrive at 
work, you will not get that notification.
    So what we really want to make sure is a system that can 
detect the presence of a living being and that there is 
redundancy built into the system.
    Ms. Schakowsky. OK. I have run out of time.
    Mr. Shapiro, I thank you. And we can talk more. We had a 
little conversation, but I would like more.
    But I just want to say--my ranking member will--that I just 
can't thank you enough, Miles and Carol, who have made their 
life's mission to prevent this tragedy that you have suffered 
so much. In the name of Chase, you are going to make a 
difference, and I look forward to working together to prevent 
others from suffering that way. So thank you once again.
    I yield back.
    And now I yield 5 minutes to the ranking member, Mrs. 
McMorris Rodgers.
    Mrs. Rodgers. Thank you, Madam Chairman. And I share those 
thoughts.
    I am curious, as a mom with three young kids, dealing with 
car seats every day, is there any technology related to an 
alarm system on the car seat itself?
    Ms. Fennell. I can take that question. Yes, there are two 
car seats made by Evenflo that have technology built into them. 
They are a little bit higher priced than a regular car seat, 
but the problem we have with that is that nobody thinks this is 
going to happen to them. They may not want to pay that extra 
$5. So car seats, of course, is a welcome addition to some of 
the technology that is needed, but we really feel it should be 
vehicle-based. Because when you think about so many years ago, 
no one ever wanted an airbag and they wouldn't pay extra for 
that airbag. Now we, you know--fast-forward to today. Who would 
ever buy a vehicle without an airbag?
    So it does, you know, take time for those things to go 
through the turnover of the vehicle system; but we are really 
promoting vehicle-based and car seat as a backup.
    Mrs. Rodgers. OK. Thank you.
    Mr. Shapiro, in your testimony, you highlighted an 
entrepreneur, over 80 years old, who had a booth at CES, 
focused on preventing children, seniors, and even pets from 
being inadvertently left in cars. It also highlighted the 
benefits of self-driving cars for all facets of society. I have 
a son with special needs, Down syndrome, and I am really 
excited about what self-driving cars are going to mean for him 
and his future.
    How do you see innovations helping us move toward safer 
roadways and saving lives? In other words, how can we address 
these auto safety issues through innovation and technology-
based solutions?
    Mr. Shapiro. Thank you. We as an association have one 
fundamental mission, and it is focused on innovation and 
improving people's lives. So we are pretty passionate about it. 
And I think there is a role for industry, there is a role for 
consumer groups, and there is a role for government.
    To me, the role of government is to, in a sense, encourage 
innovation and also create the regulatory guardrails so that we 
can proceed and also have competition, because competition--
there are so many solutions to this problem. We are seeing it 
in the competitive marketplace. You can see it in the patent 
filings. You can see it--and it is not just about this issue.
    To me, the bigger answer, in a sense, is, since it takes so 
long to get a rule, a rulemaking, a process to go forward, to 
get it implemented, the aging cars we have, the average is 12 
years, young parents with kids aren't likely to buy a new car, 
the big--the quicker answer to me is to get us to self-driving 
and the levels there as quickly as possible. Because if you 
think about self-driving, the advantage of that is, first of 
all, we obviously have fewer accidents and we are going--I 
expect that we are going to start having it as soon as we have 
these steps to self-driving.
    The second is--and Ms. Fennell really hit home this point 
well for me--is that part of the challenge is, is that we are 
away from our children by sitting in the front. It makes sense, 
from a safety point of view, while you are mobile; but with 
self-driving, that won't be necessary anymore. You will be--
most likely, you will be in the back with your kids, and that 
type of incidence will be helped, but we will also obviously 
have collision avoidance.
    And the other thing with self-driving, we will have--by 
definition, self-driving cars, I believe, will have to be able 
to detect the- presence of beings, because there is not going 
to be a steering wheel in a future. You know, it will take a 
while to get there, and there is not going to be all the other 
things you have in a car, and you will have living 
environments, but they have to respond to the people that are 
in there. The people could have--for example, what if the 
person in the car has a heart attack or something like that? 
The vehicle has to know that. So when you are in a self-driving 
vehicle, as a being of any age or size, the vehicle will know 
about that and presumably have some communication mechanism and 
ability to alert emergency or to go to a hospital, things like 
that.
    So 25, 30 years from now, if we don't mess it up, if we--if 
we proceed as fast as we can to stop those 30,000-plus deaths a 
year and hundreds of thousands of incidents, this issue also 
will be an issue of the past, and this will--the horror that 
Mr. Harrison went through will never have to happen again. And 
that is why I think, in a sense, there is a dual path.
    There is the legislation here that is now before you. Stand 
alone and you have to decide whether that is important enough 
to make it a priority in a way under any scenario will take 
several years, but also I would urge you to push the 
legislation this committee already passed unanimously so we can 
proceed as a country, instead of starting to get behind, where 
we have a national approach, we make it a national goal, and we 
get there, and then we eliminate well over 90 percent of deaths 
and injuries. And there are so many benefits from that.
    Also, as a--just trying to get kids around as a parent, I 
am looking forward to that.
    Mrs. Rodgers. Thank you.
    Now, I am very excited about self-driving cars on a number 
of fronts, although yesterday, I was told that they are also 
going to notify--the potential of notifying you of when your 
weight goes up, which I am not sure I am excited about that.
    Mr. Shapiro. We talked about that.
    Ms. Schakowsky. We agree there.
    Mrs. Rodgers. Thank you. I was--yes, I am out of time too.
    I was interested, Mr. Harrison, just in hearing what 
technology you are most excited about, but maybe you can 
address that later. Thank you.
    Mr. Harrison. Thank you, ma'am.
    Mrs. Rodgers. I will yield back.
    Ms. Schakowsky. If I could, at the end, I want to ask a 
question about self-driving cars and algorithms that may 
inadvertently be discriminatory. So I will do that.
    Mr. Cardena is next for 5 minutes.
    Mr. Cardena. Thank you very much, Madam Chair and Ranking 
Member, for holding this very critical and important and 
emotional issue.
    The loss of life, each life is very tragic, and the fact 
that we are such an amazing country with so much technology and 
so much ability to right these situations quicker than probably 
anywhere on the planet, I think this hearing is important that 
we hear about technology and we hear also about how dire that 
pain is when these tragedies occur.
    For example, according to KidsAndCars, we lost 62 children 
from backover/frontover collisions. And, again, that is 62 too 
many. That is one too many, et cetera. And as a parent and a 
grandparent, it is this lens that I have now of being a 
grandparent, it is even more critical to me, all of these 
issues.
    The first question I would like to ask is to Ms. Fennell. 
What sorts of safety tips can parents and children follow to 
avoid a backover or frontover tragedy?
    Ms. Fennell. Thank you very much for that question. What we 
tell parents is to make sure that you walk all the way around 
your vehicle before you ever move it, because there could be 
children behind or in front of the vehicle. And they tend--when 
you are leaving, they want to come and give you a kiss goodbye. 
They just want to wave, and they don't understand that you may 
not be able to see them. So, you know, make sure that you walk 
all the way around.
    And we also suggest, because this is very available, if you 
don't already have built-in cameras and things, you can get 
these aftermarket. Because so many people say to me all the 
time, oh, when I get a new car, I want to get one of those, you 
know, rearview cameras. I am, like, you don't have to wait. You 
can get that. It is pretty darn economical, and you just don't 
want to be backing blindly.
    Mr. Cardena. I think one thing the Government can actually 
do is help subsidize retrofitting older vehicles with these 
devices so that it can become more prevalent more quickly. That 
could be something the Government could encourage and invest in 
saving lives. That is one aspect. So thank you for sharing that 
with us. And you are not just talking to us; you are talking to 
the American people right now. So thank you for sharing that 
knowledge.
    I would also like to thank you, Miles Harrison, for sharing 
what it is like to go through what you have gone through. 
Chase, we all wish he we were here with us, but you and Carol 
are here with us and you are dedicating your lives to unborn 
children, to families who have yet to have children, and all of 
us who have precious little ones in our lives.
    I think that your courage and your willingness to allow 
yourself to be so confronted with this pain every day in front 
of all of us and the public proves that you are innocent. It 
proves that what you went through in that trial was an 
overburden by our society that, in my opinion, was not 
necessary. And as a Christian myself, I notice that you 
mentioned that you have yet to forgive yourself. Well, I am of 
the feeling and the opinion that forgiveness was not something 
that you needed, because from where I come from, forgiveness is 
something that you get later after something. I do not think 
that you were required forgiveness because you didn't do 
anything in malice. You loved Chase, that is obvious. And I 
admire you for your strength.
    I just hope and pray that we as representatives of the 
people, of the people's House, will do our job and to show the 
amount of strength and the responsibility and the energy and 
the time that we and our staffs should put forth to make these 
solutions more real as quickly as possible. Because every day 
that goes by, this could and does happen in America. So, again, 
thank you for your courage and thank you for being here.
    And, Carol, thank you for sharing your words with me and 
giving me advice. And there are many, many things that we can 
do, and hopefully, we will do them as quickly as possible.
    I yield back.
    Ms. Schakowsky. Thank you.
    I now yield to Mr. Latta for 5 minutes.
    Mr. Latta. I thank you, Madam Chair. Again, thanks for 
having today's hearing.
    And, Mr. Shapiro, if I could ask you my first question, 
and, again, going back to self-drive technology. And, you know, 
when we worked on the legislation last year, we wanted to make 
sure that safety was always first, last, and always. We wanted 
to make sure that we had cyber security being built in the 
vehicles, that we also had privacy, making sure that those 
concerns were addressed. And also, with the issues with our 
senior citizens who are no longer mobile, that they would have 
the ability to get out again; our friends that had 
disabilities, that they had the opportunity, that they were 
able to be mobile and to go to a job. Just like Mr. Harper, who 
was our vice chairman at the time; his son has a disability, 
and he said that if he or his wife weren't home, that they 
wouldn't be able to get him to work each day, and why it is so 
important.
    And in 2016, the Department of Transportation had the 
competition for a Smart City Challenge out there for innovative 
and smart solutions that could occur out there, and the city of 
Columbus won, in Ohio, because they were wanting to address the 
alarmingly high rate of infant mortality that they had in the 
city.
    And I would like to ask you, do you see more communities 
integrating self-driving vehicles and their services to address 
more community concerns out there, and what those concerns 
could be addressed by?
    Mr. Shapiro. Yes, thank you for that question. Smart cities 
is a very vital part of our future for so many different 
reasons. It goes to resiliency. It goes to energy efficiency, 
being green. It goes to having near you everything you need in 
serving populations, especially as we are moving to cities. It 
is not just the United States, around the world, whereas 40 or 
50 years ago, two-thirds of us lived outside cities, soon two-
thirds of us will live in cities.
    So smart cities themselves, what they do is they--the 
structure changes, even how you build the city, how many 
parking spaces you have, how people get around, and micro 
transportation and options and everything else. But what we see 
with self-driving cars, that is a vital part. And Ford, 
recently at CES, the CEO presented a vision of a smart city and 
showed how you redesign the city and you use self-driving cars 
to get around, and it just changes everything.
    And, obviously, what goes away are so many things that we 
are spending money on today, both as a Government and as 
people, in terms of if you don't have--if you have self-driving 
cars, if you get rid of 90 percent or more of collisions, it is 
not only the 30,000, 40,000 people that die, it is the hundreds 
of thousands, if not millions, that are injured. It is the 
cost. It is the auto insurance cost, the collision repair cost. 
There are so many things that change fundamentally.
    And you actually need fewer cars in a city, which in 
theory, should cut down on congestion. You need less parking in 
a city, and all of a sudden green spaces open up. So this is--
the way we actually have CES in Las Vegas is we actually have 
smart cities and we have a lot of self-driving right nearby 
because it is just part of what it is. And a lot of the 
demonstration projects we are seeing in the beginning are self-
driving vehicles on a--on a course--on an area--a community, a 
business entity area, a residential community for older people, 
where you have smart-driving vehicles--self-driving vehicles 
actually going around. So, yes, it changes everything, and that 
is where we are heading as a world.
    You know, some of us would just like to have timed traffic 
lights, but we have to go much, much further and much quicker. 
And that is where the Government has a major role to end this 
tragedy on our highways. There are so many things we will do 
with self-driving cars, and we are getting closer every year.
    I honestly don't think this is happy talk. This is real. 
There are demonstrations. I have been in several self-driving 
cars myself, and they are safer and they are better and they 
will solve this problem totally.
    Mr. Levine. Well, thank you.
    Mr. Latta.Let me go on. You know, with the SELF DRIVE Act 
that I introduced with our chair in the last Congress, and it 
passed the House unanimously, could you also explain some, 
how--when we are talking about how it can improve the highway 
safety--I know you touched on it a little bit, but really get 
into a little more detail on how we can make these roads safer 
out there, because of 37,000 lives we lost last year alone.
    Mr. Shapiro. Well, what we are seeing in consumers, one, 
is--and the Act will help--is make it a national approach. 
Right now, if you want to go to California in a self-driving 
car to Nevada, you literally have to change your license plate 
at the border. That is not how we operate as a country. That is 
not what--I mean, one of our competitive advantages over 
Europe, frankly, is the fact that we have one language, one 
land, and the rules which--affecting vehicles are really more 
on licensing and things like that.
    So the self-driving act does so many different things to 
allow testing, to encourage testing to move us forward, but 
what we are seeing--and I want to get this point out, if I may, 
Madam Chair--is that consumers have chosen--the biggest 
surprise that I had at the end of 1998 is when--because we--I 
am sorry--2018, is that when we issue our annual statistics and 
forecasts, we had to raise by a billion dollars what Americans 
are spending on car electronics.
    And I dug deep and I said, why is this? What did we get 
wrong a year ago? And what we got wrong was Americans' desire 
to load up their cars with safety options, that are going to 
dealerships, and all these things which lead us to self-
driving, going to Level 2 and Level 3, they want that in their 
cars. So they are choosing, actually, with their pocketbooks to 
get these features. And that bodes really well for investment 
by the car companies. It bodes well for what consumers wants.
    Mr. Latta. Thank you very much.
    Madam Chair, my time has expired, and I yield back. And I 
appreciate your indulgence.
    Ms. Schakowsky. Thank you.
    Congresswoman Blunt Rochester, you have 5 minutes.
    Ms. Blunt Rochester. Thank you, Madam Chairwoman, for 
calling this important hearing on summer driving dangers.
    I first want to say to Ms. Fennell, thank you so much for 
sharing your story and for the work that you are doing.
    I thank all of the panelists for your testimony.
    I especially want to say something to Mr. and Mrs. 
Harrison. As a parent, I sit before you and think about all the 
parents across the country, all the families. And I think about 
the fact that how I got to this position was unexpectedly being 
widowed at the age of 52. And I am from the State of Delaware, 
and I remember being in the hospital that day and our Vice 
President called and said, may the day come when your loved 
one's name brings a smile to your face before a tear to your 
eye.
    And as I see you cry those tears, I want you both to know 
that Chase is here, you are creating a legacy for him, and 
there will be a day when we pass these bills and you will be 
able to smile, smile broadly, and know that your work is not in 
vein and that you turned your pain into purpose. So thank you 
so much for sharing. Thank you for staying on the battlefield.
    And thank you all for the work that you are doing. Just 
wanted you to know that.
    Now I am going to take a breath and turn to my questions. 
For my State in Delaware, automobile safety is very important. 
And I would like to echo Chairman Pallone's opening that it is 
fitting that we are having this hearing Memorial Day weekend. 
Delaware saw approximately 9 million visitors in 2017, and some 
of those visitors, vehicle safety was crucial to saving their 
lives, their children, pedestrians, and families.
    We also have the major I95 corridor that goes up and down 
the East Coast, So this is really important. And Delaware saw 
119 automobile-related fatalities in 2017, which was greater 
than the previous 2 years. So this is important, this 
discussion, not just to Delaware, but to our country.
    And I want to ask my first question to Mr. Levine. Thank 
you, again, for your testimony. We all agree that these 
technologies have the potential to radically change the 
automobile travel in our country and safety, but I am concerned 
that access to these lifesaving technologies is sometimes 
determined, in large part, by income. If you could talk to us 
about the fact that, you know, you have these things like land 
departure warnings, backup cameras, and things like that that 
are all also sold as like luxury item packages. They are put in 
as upgrades. And I understand that JD Power, in 2015, the study 
said that consumers are willing to pay for safety features but 
up to a certain limit.
    And so if you could just talk about how widespread this is, 
this issue of bundling these things. And do you believe that 
safety enhancing features as part of an expensive add-on or 
bundle discourages consumers from buying these safety features?
    Mr. Levine. Thank you for the question. And I think the 
short answer is, yes, it does. We have a history of the auto 
industry very successfully taking longer than probably is 
necessary once safety technology has met a certain level of 
performance requirements in terms of seeing it as a standard, 
and has used that interim time to sell it as a luxury feature.
    We need to look no further than the backup cameras, which 
took 10 years from the moment at which they were readily 
available in terms of the technology and reasonably priced in 
terms of integrating it into the system, until they became 
mandatory. And during that period of time, all of a sudden it 
became part of a leather seat package, a moon roof package that 
really undercuts the ability for everyone to prevent that awful 
mistake.
    Ms. Blunt Rochester. And should NHTSA be doing more to 
require safety features on all new vehicles? I have 43 seconds, 
and anybody can jump in also, if there are ideas to help 
consumers to be able to access these features.
    Mr. Levine. Real quick, there is a number of existing 
mandates over at NHTSA in terms of safety rules that they could 
move forward very quickly and some other things that they could 
start the process of to move things forward to get everyone the 
safety devices.
    Ms. Blunt Rochester. I have 27 seconds.
    Ms. Fennell. I would like to just say there is a pending 
rule for rear seatbelt reminders that would save thousands and 
thousands of lives. We know a reminder for putting on your 
seatbelt will help. We tell everyone to put their children in 
the backseat, but there is not a reminder back there. It should 
have been finished in October of 2015. It has not even been 
started yet.
    Ms. Blunt Rochester. I yield back the balance of my time. 
And thank you so much.
    Ms. Schakowsky. Thank you.
    Mr. Buchson, you are recognized for 5 minutes.
    Mr. Buchson. Thank you very much.
    And thank you for all your testimony.
    You know, one of the most common things we are having 
trouble with now is distracted driving from cell phone usage, 
right? I have four kids. They are 26, 24, 21, and 15. Three of 
them drive, one is going to. Is there any technology right now 
that could prevent people from being on their phone when they 
are driving?
    Ms. Fennell, I will start with you, and then Mr. Shapiro, I 
guess, whoever feels like they can answer that question the 
best.
    I mean, we have to go--you know, they asked--I can't 
remember--Willie Horton, why do you rob banks? He said, ``that 
is where the money is.''
    And so this is one of the biggest problems that we have in 
our country are distracted driving by everyone really. Is there 
something we can do about it?
    Mr. Levine. So I will start. I mean, there are a number of 
technologies that are being tested that either can disable 
phone use inside the vehicle. Obviously, there is some consumer 
acceptance concerns of that, because if you are not the driver, 
there is a level of I want to be able to still use my phone. So 
there is a weighing of the safety----
    Mr. Buchson. Can I make a quick comment? My dad, he died at 
age 84, and he never put his seatbelt on. So he was resistant 
to that.
    So we still mandated seatbelts in automobiles, right?
    Mr. Levine. So we are--you know, we would be okay with 
that. I am just, you know----
    Ms. Blunt Rochester. I understand.
    Mr. Levine [continuing]. Explaining part of the reason. And 
there is other--there is aftermarket technology. The phones 
themselves have the technology. I think we also need an ability 
to have a larger conversation, which this committee has started 
and continues, on the idea of how terribly dangerous distracted 
driving is. I think people still think it is not the same thing 
as drinking or being on drugs or other distractions. It is 
equally as deadly.
    Mr. Buchson. Anybody else have any comments?
    Mr. Shapiro. Sure. The increase in driving deaths is 
troubling, and part of it can be attributed to lower gas prices 
and the fact that people are driving more, the economy is doing 
better, but not all of it. And definitely, there is a 
distracted driving issue.
    I think we did a really good job several years ago of 
alerting people to it. We had a lot of public education 
campaigns. We worked very hard on it. I think companies like 
Apple and other cell phone companies have said, you know, you 
have to punch in ``I am not driving,'' especially--even if you 
are a passenger, and that is a good solution. But the--it seems 
that the nature of the technology is such that it becomes more 
urgent and it is almost like you get a little hormone thing 
too. It is difficult not to answer.
    And then there are solutions coming a little bit quicker. 
The smart speaker is migrating to the car, and that allows you 
to use your voice, if you will, as a medium, rather than 
looking down and using your hands. You can have your e-mails 
and other things read to you. There is a lot of different 
things there.
    And also there is, frankly, these passive and active 
reminders that are increasingly in cars that tell you if you 
have gone over the line. It vibrates your seat or makes a 
noise, and these are solutions. And the advantage of these 
being introduced the way they are by the car companies is 
consumers are becoming, not only comfortable with them, but 
they want them. Yes, they do have to pay more for them in the 
beginning, but there is a competitive marketplace in the 
beginning as to which ideas win, how they can perfect it. And 
there is an economy of scale which as you make more of these, 
and the right ones survive, they go down dramatically in cost.
    So the Government, I think, and your job as Congress, is to 
figure out that fine line between mandating something that 
could be cost effective for everyone and not impose a huge cost 
that would cost a lot more to buy a car, and going the other 
way and saying, ``Wait a second. We will just leave this to the 
free marketplace forever. These safety devices may have value 
but not enough to mandate.''
    So you have to figure out that balance line. I would urge 
that competition, especially for new products being introduced, 
publicize, get them out there, see which ones are the best, and 
see how consumers react to them. But we have a lot of solutions 
coming as we get to the holy grail, which is the self-driving 
car.
    Mr. Buchson. All right. I will follow up with you on 
another question, Mr. Shapiro.
    Most rural parts of this country--I represent a lot of 
rural areas--people have to travel great distances to receive 
medical care. So this is a potential area of self-driving that 
could really be beneficial, right? The closest hospital may be 
the next town over, and specialists may be hundreds of miles 
away.
    Can you talk about maybe how self-driving vehicles, not 
only just for convenience, but actually for things like going 
to see a doctor or--especially for rural parts of America, how 
it might benefit people more broadly as it relates to that?
    Mr. Shapiro. That is a hugely important point, Congressman. 
I appreciate you raising it. Rural America is not well-served 
by a lot of our whole U.S. infrastructure today, and it is a 
challenge. Self-driving cars clearly will make a difference 
because that will provide for--especially for a lot of--a large 
portion of elderly people cannot drive even, and it will allow 
them to be served and serviced.
    And also, since we have such an active group that is 
proceeding so quickly in technology, telemedicine is 
increasingly big, and we need to break down barriers for that 
as well. You shouldn't always have to get into a car to see 
your doctor. We have found in our own operation, for example, 
that if you just let people talk to a doctor, they may not have 
to go to the emergency room. But yet you will serve, not only 
all the elderly people, rural people, people with disabilities 
and others, and they need to be empowered. We shouldn't have 
such a large percentage of our population eliminated from the 
services we can provide to get them healthy, to see things, and 
do things.
    Mr. Buchson. Thank you very much. I yield back.
    Ms. Schakowsky. Mr. Carter, you are recognized for 5 
minutes.
    Mr. Carter. Thank you, Madam Chair.
    I thank all of you for being here this very important 
subject.
    Mr. Harrison, thank you especially. I can only imagine the 
pain, but I want you to know that your courage is an 
inspiration to all of us. And thank you. Thank you for being 
here.
    Mr. Shapiro, let me ask you, and kind of to follow up on 
Dr. Bucshon's questions about distracted driving. You know, we 
concentrate a lot of times on DWI and impaired driving, but 
distracted driving is a big problem. I mean, we have all 
experienced it. And, listen, I am as bad as anybody, I admit, 
and I need to do better with that.
    But distracted driving, as we get--as we have more of this, 
and we do have more of it, because we are--we are a society now 
that is--you got to have it right now. I mean, the phone rings, 
you have got to answer it right now. You know, you get an e-
mail, you have got to answer it right now. And that is just the 
kind of society we are right now.
    Are there any--any ways to educate and incentivize drivers 
like me that are distracted to change our behavior?
    Mr. Shapiro. I don't know about incentivizing you, because 
I don't want to violate any ethics rules, but in terms of--
there is a huge number of innovative technological solutions 
that people are selling. For example, let's say your teenager, 
you want to track what they are doing and how they are driving, 
you can. Insurance companies will increasingly say you can get 
a lower rate if we could put--you know, track your driving for 
a while or always, to see whether----
    Mr. Carter. There is a financial----
    Mr. Shapiro. There are some marketplace things out there 
and there is a lot of self--there is a lot of technology. 
Increasingly, for example, there is technology which monitors 
your eyes. And if your eyes are away from the road for more 
than a couple of seconds, it sends off an alert. There is that, 
as I said, if you go over the line, increasingly in a large 
number of cars you get a passive indication, your wheel 
vibrates, or your seat vibrates. So there is a noise which lets 
you know you have done that.
    So there is a lot of solutions out there, just as--but, you 
know, the fact that there are technological solutions doesn't 
mean they are activated. For example, with drunk driving, we 
have known how to cure drunk driving for 30 years. We know you 
could test someone before they start their car, and we have 
chosen--not we. We collectively as government and people have 
chosen not to implement that.
    But I think we need to do more in public awareness. I think 
we need to do more in terms of publicizing these things that 
are out there, and I think the insurance companies have their 
role to play. But, yes, it is definitely a problem. And there 
is different State laws. Like if you are at one of these lights 
here in Virginia where our organization is, you could wait 
there for two minutes, and how could you resist looking at your 
device. But in some States, that is illegal.
    Mr. Carter. Right, right. And in the State of Georgia we 
have made it illegal, or the legislature has passed legislation 
to make it illegal, and I welcome that. I think it is 
necessary, and certainly, we have got to change that. I 
understand.
    You have talked a lot about self-driving cars, Mr. Shapiro, 
and that is obviously the wave of the future. What do you see 
as the most impactful technologies that are coming out there? I 
mean, if I had to--if you had to list, you know, this is really 
going to be a game changer, is there something like that out 
there?
    Mr. Shapiro. Well, self-driving cars is the answer, but 
there are many steps to get to the answer. It is not digital 
where you are either there or you are not. I mean, it is easier 
to do in climates where there aren't snow and hail and rain and 
things like that, and there are so many things and steps and 
different companies along the way that have to do things 
really, really well to make this work. I mean, we have the 
camera technologies got down dramatically. Some of the new cars 
today have several cameras on them, but someone has to process 
that.
    And, for example, there is something called LIDAR, which is 
very expensive. It is a couple thousand dollars now, but that 
really allows--like cameras aren't the only answer, although 
Tesla takes the approach that cameras are the only the answer. 
The problem is that cameras do not really work that well at 
night, and they see two dimensionally. LIDAR actually picks up 
where cameras wear off.
    So I am not going to say there is one answer. I am going to 
say the answer is redundancy and making sure that cars are 
safe.
    Mr. Carter. Let me ask you this. Not to interrupt you, but 
let me ask you. I have got my truck. You know, it is a 2004. It 
has got 408,000 miles on it. I mean, obviously, it doesn't have 
any of this technology. Is there any kind of aftermarket 
technology that can be applied? Because the average--the 
average person keeps a car for, what, 10-1/2, 11 years?
    Mr. Shapiro. It is about almost approaching 12 years now. 
And you are absolutely right; this is going to be an evolution 
over years, and there will be aftermarket solutions, but I do 
not know if there will be total solutions. So the question is--
but if we have--it is like think of the measles vaccine, if you 
will. The higher percentage of self-driving cars we get out 
there, the safer everyone is.
    Mr. Carter. Right.
    Mr. Shapiro. And how we address the last 10 or 15, 20 
percent, I think there should be some good, healthy discussion. 
It could be those car--your car might have, even though it is 
old, might have higher insurance premiums on it because you are 
less safe than everyone else.
    So we will get to those problems. Those are not the big 
problems. I think the issue is how do we get this legislation 
passed, which came out of this committee the last Congress, 
bipartisan unanimously. How do we get it so we are working as a 
country towards a goal? And that goal, in my view, could be 
clearly stated by X date, we have X number of fewer percentage 
deaths. And that is what we should be doing in the country.
    Mr. Carter. Well, thank you again.
    Thank you all for being here.
    And I yield back.
    Ms. Schakowsky. I would like to thank all of our witnesses 
for their participation in today's hearing.
    We have some documents to submit for the record. I request 
unanimous consent to enter them into the record. I will read 
them. A letter from Securing America's Future Energy; a letter 
from the United States Chamber of Commerce's Technology 
Engagement Center; a statement from Jennifer Huddleston and 
Ryan Skorup, research fellows from the Mercatus Center at 
George Mason University; a letter from Marc Scribner from 
Competitive Enterprise Institute; a statement of Catherine 
Chase, president of the advocate--Advocates for Highway Safety 
Auto--and Auto Safety; a letter from the National Security 
Council.
    Without objection, I would like to insert them into the 
record.
    Hearing none, so ordered.
    [Material submitted for inclusion in the record follows:]
    Ms. Schakowsky. I remind Members that pursuant to committee 
rules, they have 10 business days to submit additional 
questions for the record to be answered by the witnesses who 
have appeared. I ask each witness to respond promptly to any 
such questions that you may receive.
    And at this time, the subcommittee is adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
